CERTIFICATE OF COMPLIANCE
No. 19-

Lawrence I. FEJQKWTL
Petitioner,
v.
Commodity Futures Trading Commission,
Respondent.

As required by Supreme Court Rule 33.1(h), I, LAWRENCE
IKEMEFI/NE C. F&JQKWU, certify that the petition, for a. writ of
certiorari contains 8438 words in the petition and 561 words in
the diagrams for a total of 8999 words. This word count excludes
the parts of the petition that are exempted by Supreme Court
Rule 33.1(d). The word count has been determined by the word
count feature of MS Word for all. the text pages and a manual
count of the words on the pages with, diagrams.
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on the 22nd day of July, 2019.

j/^>\

Lawrence Ikemefune C. Fejqkwij

RECEIVED
JUL 2.5 2019
°Jpl?6EM<EFeo!mTLnlt!<

